HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Aetna Life and Casualty Company, (A-07-97-02505)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Aetna Life and
Casualty Company," (A-07-97-02505)
August 5, 1998
Complete Text of Report is available in PDF format
(704 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation, Aetna Life and Casualty Company (Aetna). Our review showed
that Aetna overstated Medicare segment assets as of January 1, 1996 by $910,513.
The overstatement primarily occurred because Aetna used an incorrect pension
cost to assign contributions to the Medicare segment in their update of pension
assets. We recommended that Aetna decrease the January 1, 1996 assets of the
Medicare segment by $910,513.